         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Special Report




       Congressionally Requested Inquiry
       into EPA’s Response to a Report of a
       Leaking Well in North Carolina and the
       National Response Center Hotline

       Project No. 10-P-0027

       November 10, 2009
Report Contributors:	                        Christine El-Zoghbi
                                             Tim Roach
                                             Larry Dare
                                             Eric Lewis




Abbreviations

COOP         Continuity of Operations
EPA          U.S. Environmental Protection Agency
NRC          National Response Center
OIG          Office of Inspector General
OSC          On-Scene Coordinator
TCE          Trichloroethylene
TISCOM       Telephone and Information Systems Command




.

                       U.S. Environmental Protection Agency 	                                            10-P-0027
                                                                                                  November 10, 2009
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review               Congressionally Requested Inquiry into EPA’s
                                     Response to a Report of a Leaking Well in North
Representative Heath Shuler
requested that we investigate the
                                     Carolina and the National Response Center Hotline
events surrounding a response to
an April 25, 2009, telephone          What We Found
report of a leaking well in
Skyland, North Carolina.             We found that EPA staff did not receive any calls or voicemail messages on
We conducted this review to          April 25, 2009, from the Skyland, North Carolina, constituent about a leaking
determine whether the U.S.           well. However, when the Agency was informed of the leak by a local news
Environmental Protection             reporter, EPA’s On-Scene Coordinator contacted the constituent and the
Agency’s (EPA’s) receipt and         constituent’s neighbors. The On-Scene Coordinator then arranged for
disposition of that telephone call   permanent repairs to the well, which were completed April 28, 2009.
followed applicable policies and
procedures.                          We found that NRC did receive voicemails about the leaking well. On
                                     April 25, 2009, two other callers reported separate environmental emergencies
                                     by voicemail. The NRC Operations Officer informed us NRC did not listen to
Background                           the voicemails until September 2009. We confirmed that NRC did not provide
                                     any response to these voicemails. Once the voicemails were discovered, NRC
The National Response Center         staff took no actions to inform EPA that callers had been channeled into a
(NRC), operated by the U.S.          voicemail system.
Coast Guard, Department of
Homeland Security, is the sole
                                     Prior to April 25, 2009, we determined that 12 voicemails were left with NRC.
national point of contact for
                                     The earliest of these voicemails was dated October 12, 2006. We have found
reporting all oil, chemical,
                                     inconsistencies in the statements of NRC and NRC telephone contractors
radiological, and biological
                                     regarding who within NRC may have been aware of the voicemail problem and
discharges into the environment.
                                     when.
During non-business hours, the
EPA emergency hotline is
                                     We will present our findings to the Department of Homeland Security Office of
programmed to forward all
                                     Inspector General so it may determine the degree to which the telephone
incoming calls to the NRC phone
                                     contractors have repaired the NRC phone system and to fully investigate the
system, which is staffed at all
                                     inconsistencies in information provided by NRC staff and telephone
times.
                                     contractors.
For further information,
contact our Office of
Congressional, Public Affairs and
Management at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20091110-10-P-0027.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                         OFFICE OF
                                                                                    INSPECTOR GENERAL




                                        November 10, 2009

MEMORANDUM

SUBJECT:	              Congressionally Requested Inquiry into EPA’s Response to a Report of a
                       Leaking Well in North Carolina and the National Response Center Hotline
                       Report No. 10-P-0027


FROM:	                 Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:	                   Mathy Stanislaus
                       Assistant Administrator for Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $120,684.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a report of your follow-up actions with the
U.S. Coast Guard/National Response Center as per the Office of Emergency Management,
Program Operations & Coordination Division Director’s e-mail of October 20, 2009. We have
no objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions, please contact Eric Lewis at (202) 566-2664 or
lewis.eric@epa.gov.
Congressionally Requested Inquiry into EPA’s Response                                                                         10-P-0027
to a Report of a Leaking Well in North Carolina and the
National Response Center Hotline




                                     Table of Contents 

   Purpose of Review ......................................................................................................          1    


   Background .................................................................................................................      1    


   Scope and Methodology.............................................................................................                1    


   Results of Review .......................................................................................................         2    


        EPA Responds Promptly.........................................................................................               2

        Another Skyland Area Resident Made Calls to the Region and NRC .....................                                         2

        Status of the Region 4 Emergency Line on April 25, 2009 .....................................                                2

        Status of NRC on April 25, 2009 .............................................................................                3

        Voicemails Left with NRC on April 25, 2009 ...........................................................                       3

        Voicemails Left with NRC prior to April 25, 2009 ....................................................                        4


   Conclusions.................................................................................................................      4    


   Status of Recommendations and Potential Monetary Benefits..............................                                           6    




Appendices 

   A       Voicemails Left with NRC on April 25, 2009 ....................................................                           7    


   B       Voicemails Left with NRC Prior to April 25, 2009 ............................................                             9    


   C       Distribution .........................................................................................................   10

                                                                                         10-P-0027 



Purpose of Review
Representative Heath Shuler of North Carolina requested that we investigate the events
surrounding the response to an April 25, 2009, telephone report of a leaking well in Skyland,
North Carolina. We conducted this review to determine whether the U.S. Environmental
Protection Agency’s (EPA’s) receipt and disposition of that telephone call followed applicable
policies and procedures.

Background
On Saturday, April 25, 2009, a constituent (Constituent 1) of Representative Shuler living in
Skyland became aware that a well in her yard was leaking. The day prior to the leak, an EPA
contractor had collected samples from this well. While the well is not used as a drinking water
source, the leaking water is contaminated with trichloroethylene (TCE), which is a degreaser that
is reasonably anticipated to be a human carcinogen. According to Representative Shuler’s letter
to the EPA Office of Inspector General (OIG) dated April 28, 2009, as well as subsequent
information provided by Representative Shuler’s office, a constituent reported making several
attempts on that Saturday to call the EPA emergency hotline but received no response.

There are two 24-hour emergency numbers listed on the EPA’s Region 4 Website:

   •   An EPA regional spill reporting number.
   •   The telephone number for the National Response Center (NRC), operated by the
       U.S. Coast Guard, Department of Homeland Security.

EPA staff members monitor the regional number during normal business hours and phones are
programmed to forward calls to NRC after hours and on weekends. Therefore, any call made to
Region 4 on Saturday, April 25, should have been transferred to NRC. The Coast Guard staffs
NRC at all times. NRC is the sole national point of contact for reporting all oil, chemical,
radiological, and biological discharges into the environment anywhere in the United States and
its territories. NRC disseminates telephone and electronic (fax, e-mail) reports of oil discharges
and chemical releases to appropriate federal On-Scene Coordinators (OSCs).

Scope and Methodology
We conducted field work from June 2009 to November 2009 in accordance with generally
accepted government auditing standards. Those standards require that based on our objectives,
we plan and perform the audit to obtain sufficient and appropriate evidence to provide a
reasonable basis for our findings and conclusions. We reviewed documentation surrounding the
reviewed event, including telephone records and transcripts of telephone calls. We interviewed
Skyland-area residents, as well as staff and managers from EPA and NRC. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                                 1

                                                                                        10-P-0027 



Results of Review

EPA Responds Promptly

Region 4’s OSC reported becoming aware of the leaking well that Saturday, April 25, 2009, in
either the afternoon or early evening, when a local newspaper reporter left him a voicemail
message seeking comment on the leaking well. After the OSC learned of the leaking well, he
attempted to contact Constituent 1 as well as her neighbors, but was unable to do so. He stated
he left a voice message for Constituent 1, which she confirmed receiving. The OSC reported he
then contacted the EPA regional phone duty officer to determine whether there was an NRC
report of the leaking well. The phone duty officer informed the OSC there was no such report.
We reviewed NRC phone records and emergency reports. These records did not show any phone
calls from Skyland.

The OSC reported to us that he immediately contacted the EPA contractor who would be
responsible for repairing the leaking well. The leaking well was temporarily repaired by the
local fire department on April 25. EPA’s contractor arrived at the residence of Constituent 1 on
the evening of April 26. The OSC made the necessary arrangements and the contractor finished
the repair, which an EPA hydrogeologist inspected and approved on April 28. We believe
EPA’s actions were appropriate and responsive.

Another Skyland Area Resident Made Calls to the Region and NRC

Representative Shuler’s staff informed us that both Constituent 1 and a second constituent
(Constituent 2) had made calls to the hotlines. Stories in the local press made the same reports.
Initially, Constituent 1 told us she had made the calls. During our interview, we requested that
Constituent 1 provide us with the numbers she called so that we could confirm that the calls had
been made. Constituent 1 then said she did not report the leak to either the Region 4 or NRC
hotlines. She believed that Constituent 2 and perhaps another person placed the calls, and she
provided us with the names.

When we contacted Constituent 2, he stated that he did not make any calls, but identified another
Skyland resident who he claimed had made the calls (Constituent 3). We contacted
Constituent 3, who said he called both the Region 4 and the NRC hotline from a friend’s phone.
His friend agreed to provide her phone records but could not do so because her phone company
would not provide them without a subpoena. We confirmed this requirement with the phone
company and issued a subpoena for the phone records. On August 20, 2009, the phone company
provided us the records. Those records confirmed that calls to Region 4 and the NRC hotline
were made on April 25, 2009, between 2:00 and 2:30 p.m. Constituent 3 said he reached a
voicemail system at each number. He also said that he had left voicemail messages as requested
but had not been contacted.

Status of the Region 4 Emergency Line on April 25, 2009

EPA Region 4 personnel said the region’s emergency line was programmed on April 25, 2009, to
forward all incoming calls to the NRC hotline. This is standard procedure for the Region 4


                                                2

                                                                                         10-P-0027 



hotline during evenings and weekends. NRC handles EPA regional hotline after-hours calls
according to an interagency agreement.

We obtained records from the EPA phone system, which confirmed at least one call had been
placed to the Region 4 hotline on April 25. Records show this call was forwarded to the NRC
hotline.

Status of NRC on April 25, 2009

On July 24, 2009, we interviewed the NRC Chief and the Senior Watchstander. Watchstander is
a term used by the Coast Guard to refer to personnel on duty in NRC responding to incoming
phone calls. The NRC Senior Watchstander was on duty on April 25, 2009, and he said the
hotline was staffed and operating. The Senior Watchstander also said that NRC was conducting
a continuity of operations (COOP) exercise on April 25, 2009, which involved using an alternate
telephone operations center and phone system for a portion of the day. The Senior Watchstander
said that the exercise ran from 6:00 a.m. until 7:00 p.m. The NRC Chief and Senior
Watchstander stated it was not possible for callers to leave a voicemail on the NRC emergency
line during the April 25 COOP exercise because the system had no voicemail option.

The NRC Chief and Senior Watchstander provided the OIG with phone records that listed all
incoming and outgoing calls to and from NRC on April 25, 2009. These records do not show
any incoming call from Skyland, North Carolina. The NRC Chief and Senior Watchstander said
these records would not include the numbers of callers who hung up before speaking to hotline
personnel.

On September 17, 2009, we met with NRC staff and the telephone contractors who perform
technical work on the phone system. We sought to determine how the NRC telephone system
did not record the call forwarded from the EPA hotline and Constituent 3’s call directly to the
NRC hotline. The telephone contractors told us the NRC telephone system sent some callers
directly into voicemail for a portion of April 25, 2009. They stated that before April 25 they did
not know of this voicemail system on the NRC emergency hotline.

Contrary to what we were told by the Coast Guard personnel we interviewed, the contractor
personnel said the Senior Watchstander informed them that calls were being forwarded to
voicemail at approximately 2:00 p.m. on April 25. We checked NRC phone records and
observed numerous phone calls showing NRC staff calling the hotline that day, apparently
testing the system. The telephone contractors said they worked to fix the problem while NRC
personnel continued to respond to phone calls from their COOP site.

Voicemails Left with NRC on April 25, 2009

In September 2009, NRC telephone contractors provided us with information (including
transcripts) from the voicemails left with NRC on April 25, 2009. The telephone contractors
reported that the NRC Chief would not permit them to release audio copies of the voicemails
directly to the OIG. Later, the NRC Chief provided a CD containing the voicemail messages
from April 25, including calls from Constituent 3. These voicemails state Constituent 3’s name,



                                                3

                                                                                        10-P-0027 



contact information, nature of the issue, and a request for a return phone call. The telephone
records associated with these calls indicate Constituent 3 first called the NRC hotline directly.
The second call was made to EPA Region 4 (after duty hours) and it was forwarded to the NRC
hotline. A transcription of the calls is in Appendix A.

Two other incidents, reported in three voicemails, may have also warranted NRC action to
contact EPA or other federal, State, or local agencies. The first call reported an oil sheen in a
Houston, Texas, ship channel. Another call reported “several thousand tons” of chromium VI at
a dumpsite in Missouri. Chromium VI (hexavalent chromium) is ranked eighteenth on the
priority list of substances on the 2007 Comprehensive Environmental Response, Compensation,
and Liability Act List of Hazardous Substances. NRC staff stated they had not contacted any of
the callers.

The Coast Guard Telephone and Information Systems Command (TISCOM) also left four
voicemails on the system that day. TISCOM provides telecommunications, electronics, and
information systems support to the Coast Guard. None of these voicemails included substantive
information. We believe these calls represent TISCOM staff checking on system functions
during the COOP exercise.

Voicemails Left with NRC prior to April 25, 2009

During our field work, NRC telephone contractors provided us with additional voicemail
records. These records show that 12 voicemails were left with NRC between October 2006 and
April 24, 2009. Information on the date, time, and duration of these voicemails is in Appendix B.
NRC staff reported they had not listened to these voicemails. The NRC Operations Officer
informed us the NRC did not listen to the voicemails until September 2009. We have made this
information available to an EPA official and that official said there would be follow-up with
NRC.

Conclusions
Our review indicated that EPA staff provided a timely and effective response to the leaking well
in Skyland, North Carolina. However, we believe there are weaknesses with the NRC
emergency hotline system used as an EPA Region 4 hotline backup. During non-business hours,
EPA depends on the U.S. Coast Guard to properly operate the NRC hotline. The NRC telephone
problems that occurred on April 25, 2009, resulted in missed calls for EPA’s help or assistance
with possible environmental dangers. When NRC staff discovered that emergency calls were
going into a voicemail system, they took no action to retrieve any of those calls. Although NRC
staff reportedly informed contractors that calls were going to voicemail on April 25, 2009, NRC
staff informed the EPA OIG that it was not possible to leave a message on the emergency hotline
when the system is operational. Once the voicemails were discovered, NRC staff took no actions
to contact the callers or inform EPA that calls had been missed.

Addressing the issues in Representative Shuler’s letter took more time than necessary because
some of his constituents and the NRC Chief and Senior Watchstander did not initially provide
complete or accurate accounts of the incidents. Constituent 1 did not call either the EPA


                                                4

                                                                                       10-P-0027 



Region 4 or the NRC hotlines after initially reporting she had done so. As previously noted,
NRC personnel initially said there is no ability to leave a voicemail when the system is
operational. We had to subpoena records, verify calls, and interview NRC contract support
personnel to determine what had actually happened.

We believe that NRC did not effectively fulfill its mission when emergency calls were
mishandled and unanswered. We also believe the unanswered calls were knowingly left
uncorrected. In our opinion, these conditions represent a material internal control weakness in
the process and an unsatisfactory control environment. We will present our findings to the
Department of Homeland Security OIG so it may determine the degree to which the contractors
have repaired the NRC phone system and to fully investigate the inconsistencies in information
provided by NRC staff.




                                               5

                                                                                                                           10-P-0027



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                 POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                     Planned
    Rec.    Page                                                                                    Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1    Action Official      Date      Amount      Amount

                              No recommendations to EPA




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                             6

                                                                                                     10-P-0027


                                                                                                Appendix A

              Voicemails Left with NRC on April 25, 2009
    Time           From            Duration                             Transcription
2:04 pm       U.S.G/9703313        1 second      None
                   xxx1
2:11 pm           U.S.           148 seconds     [This voicemail sounds as if the caller does not know he is
              G/9703313xxx                       being recorded. The main caller speaks to a voice in the
                                                 background which he identifies as one of the NRC
                                                 employees. They discuss other telephone numbers
                                                 associated with NRC, such as the Federal Railroad
                                                 Administration Hotline. The main speaker notes twice
                                                 that, “Somebody did something wrong up there.”]
2:17 pm            U.S.           6 seconds      None
             G/9703313xxxx
2:18 pm      [Constituent 3’s    35 seconds      Yeah this is [Constituent 3 gives his name] calling at
              friend’s phone                     Saturday afternoon at about 2:18. Wanted to report a spill
             owner]/[number]                     that's happening. TCE running out all over the ground in
                                                 Asheville, North Carolina. Please feel free to give me a
                                                 ring. I thought, it says, 24-hour spill reporting hotline, but
                                                 nobody answers on your end. Pretty amazing. Anyway,
                                                 my number is: [Constituent 3 gives his phone number]
                                                 and the name is [Constituent 3 gives his name]. Thank
                                                 you. Bye bye.
2:19 pm              Line        48 seconds      Yeah, this is [Constituent 3 gives his name] calling,
               49/914045682                      [Constituent 3 spells his last name], it's twenty minutes
                   868412                        after two Saturday afternoon. I wanted to tell you about a
                  Note: 9 1                      spill. Three months ago this well had 1,100 parts per
              (404) 568-2868                     billion of TCE. It's an artesian well, it's improperly sealed,
                 is the EPA                      it's coming up all over the ground and every three months
               Region 4 Spill                    this well has been doubling in the amount of TCE so there
                  Reporting                      we go and there are small kids playing next door. Please
                   Number                        feel free to give me a ring. My number: [Constituent 3
                                                 gives his number]. Have a nice afternoon. Bye bye.
2:23 pm       Cell Phone TX/     55 seconds      This is [Texas Caller gives his name] with [Texas Caller
                [number]                         gives his company’s name]. I was calling the National
                                                 Response Center at 1-800-424-8802. I need to report a
                                                 sheen in the water of the Houston ship channel and we
                                                 are not the response - [Texas Caller gives his company
                                                 name] is not the responsible party and we don't know who
                                                 is. But we wanted to make a notification so that there
                                                 would be an awareness. My cell phone number is [Texas
                                                 Caller gives part of his phone number] excuse me.
                                                 [Texas Caller gives part of his phone number] oh I forgot
                                                 it. I will call back this number and leave a message with
                                                 the correct number.
2:23 pm           U.S.            2 seconds      None
              G/9703313xxx


1
    Note: (703) 313-xxxx is the number for U.S. Coast Guard’s TISCOM


                                                        7
                                                                                               10-P-0027 



 Time           From          Duration                             Transcription
2:24 pm    Cell Phone TX/    33 seconds      This is [Texas Caller gives his name] with [Texas Caller
             [number]                        gives his company’s name], [Texas Caller gives his
                                             number], calling to report a sheen of water, oil, in the
                                             Houston ship channel to the national response center.
                                             I called 1-800-424-8802 and I've gotten this recording.
                                             Normally I would expect to reach the National Response
                                             Center. Thank you.
2:41 pm       [name 2]/      [information    This is [Missouri Caller gives his name, spells last name],
              [number]       not provided]   and I'm the EMD for Harrison County. I need to speak to
                                             someone about getting some soil testing done as soon as
                                             possible. I found a dumpsite here in Harrison County that
                                             has several thousand tons [emphasis heard in original] of
                                             Chromium VI in a concentrated area and I'd like to start
                                             some kind of process of getting this tested. My cell
                                             number is [Missouri Caller gives his phone number] and
                                             I'd like some help as soon as possible. Thank you.
2:42 pm     Anonymous/        4 seconds      None
              17230

Source: NRC phone records.




                                                   8

                                                           10-P-0027


                                                         Appendix B

Voicemails Left with NRC Prior to April 25, 2009

            Date                   Time      Duration
         10/12/2006               3:48am    11 seconds
         10/12/2006               3:58am    11 seconds
         1/19/2007                9:06am    56 seconds
         1/20/2007                1:28pm    47 seconds
         1/20/2007               10:23pm    77 seconds
         1/22/2007                7:15pm    3 seconds
         1/23/2007               12:37pm    14 seconds
         1/24/2007                5:37am    18 seconds
         1/24/2007               11:57pm   175 seconds
         1/25/2007               12:14pm    2 seconds
         1/25/2007                4:27pm    4 seconds
         6/27/2008                6:57pm   295 seconds

    Source: NRC phone records.




                                    9

                                                                              10-P-0027


                                                                            Appendix C

                                   Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Acting Regional Administrator, Region 4
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Acting Inspector General




                                           10

